               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




        University Station, Eugene, OR
                Consolidation

                       Audit Report




                                              July 20, 2011

Report Number EN-AR-11-007
                                                                          July 20, 2011

                                                       University Station, Eugene, OR
                                                                        Consolidation

                                                         Report Number EN-AR-11-007




IMPACT ON:                                   costs in the proposal submitted to
The U.S. Postal Service-operated retail      headquarters for final determination due
facility discontinuance process is used      to inadequate coordination between
by headquarters, area, district, and local   local and district management and the
offices and is high profile and sensitive    discontinuance coordinator.
with visibility from Congress,
communities, customers, employees,           In addition, we identified various
unions, and other stakeholders.              concerns with the economic analysis
                                             and believe improvements could be
WHY THE OIG DID THE AUDIT:                   made to allow for a more objective
The Postal Service initiated a               evaluation. We are not making a
discontinuance study to consolidate the      recommendation, because we will
University Station into the Eugene Main      address this issue in our comprehensive
Post Office in July 2009, and public         review of the draft Postal Service-
notices were issued the same month.          Operated Retail Facility Discontinuance
The discontinuance study was                 Guide, which will examine all
completed and submitted to                   components of the discontinuance
headquarters for final determination,        process.
and the University Station was closed in
January 2011. We received a                  WHAT THE OIG RECOMMENDED:
congressional inquiry expressing             We recommended the vice president,
concerns that public inputs were limited     Delivery and Post Office Operations,
during the discontinuance process.           ensure that district managers review
                                             and certify all applicable direct and
WHAT THE OIG FOUND:                          indirect costs in discontinuance
The Postal Service followed applicable       proposals before submitting them to
federal law and postal policies to           headquarters for final determination.
discontinue the University Station
operations. Specifically, the Postal         WHAT MANAGEMENT SAID:
Service provided the public adequate         Management agreed with the findings
notices and opportunities to comment.        and recommendation. Management
In addition, the Postal Service              added a financial model, which was
considered public comments, and              established to analyze projected savings
effects on the community, and service in     and costs, effective July 14, 2011.
the final determination to close the
University Station. However,                    Link to review the entire report
management omitted certain operational
July 20, 2011

MEMORANDUM FOR:            DEAN J. GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                           TERRY K. ANDERSON
                           DISTRICT MANAGER, PORTLAND DISTRICT

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General for Mission Operations

SUBJECT:                   Audit Report – University Station, Eugene, OR Consolidation
                           (Report Number EN-AR-11-007)

This report presents the results of our audit of the consolidation of the Eugene, OR
University Station to the Eugene, OR Main Post Office (Project Number
11XG020EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael Magalski, director,
Network Optimization, or me at 703-248-2100.

cc: Patrick R. Donahoe
    Megan J. Brennan
    Sylvester Black
    Paul F. Bastinelli
    James J. Boldt
    Scott A. Buss
    Melissa A. Speelman
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Discontinuance Process .................................................................................................. 1

   Community Input ......................................................................................................... 2

   Office Workload and Economic Savings ...................................................................... 2

   Service Alternatives ..................................................................................................... 3

   Final Determination ..................................................................................................... 3

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Economic Analysis .......................................................................................................... 5

   Potential Revenue Loss ............................................................................................... 5

   Profitable Unit .............................................................................................................. 5

   Competitive Advantage................................................................................................ 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objectives, Scope, and Methodology .......................................................................... 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Other Impact ............................................................................................. 10

Appendix C: Retail Facilities in Eugene, OR ................................................................. 11

Appendix D: University Station Discontinuance Timeline .............................................. 12

Appendix E: Management’s Comments ........................................................................ 13
University Station, Eugene, OR                                                                  EN-AR-11-007
 Consolidation


Introduction

This report presents the results of our audit of the consolidation of the Eugene, OR
University Station to the Eugene, OR Main Post Office (MPO) (Project Number
11XG020EN000). The report responds to a congressional inquiry on complaints that
public inputs were limited during the U.S. Postal Service discontinuance process. Our
objectives were to assess the consolidation and determine whether the discontinuance
process was transparent and included a review of community needs. The audit
addresses operational and financial risks. See Appendix A for additional information
about this audit.

The Postal Service’s current retail network of approximately 32,000 facilities reflects a
time when mail volume was robust and there was less alternate access to postal
services. Congress recognized in the Postal Accountability and Enhancement Act of
2006 1 that the Postal Service has more facilities than it needs and strongly encouraged
streamlining the network. The University Station, located at the University of Oregon
Eugene Campus, provided retail and Post Office™ (PO) box services. In July 2009, the
Postal Service initiated a discontinuance study, and in August 2010, the vice president,
delivery and PO operations, approved the transfer of all operations and PO boxes from
the University Station into the Eugene MPO. The University Station was closed effective
January 15, 2011.

Conclusion

The Postal Service followed applicable federal law 2 and postal policies 3 to discontinue
the University Station operations. Specifically, the Postal Service provided the public
adequate notices and opportunities to comment. In addition, the Postal Service
considered public comments, and effects on the community, and service in the final
determination to close the University Station. However, we identified various concerns
with the economic analysis and believe improvements could be made to allow for a
more objective evaluation.

Discontinuance Process

In July 2009, the Postal Service began a discontinuance study to close the University
Station and consolidate its operations into the Eugene MPO. The SBOC Initiative
provided factors to consider closure or consolidation of a station or branch. These
factors affect the community, office workload, economic savings, and proximity of other
facilities.




1
  P.L. 109-435, December 2006.
2
  Title 39 U.S.C. Sections 101(b) and 404(d).
3
  Handbook PO-101, Post Office Discontinuance Guide, August 2004, and Stations and Branches Optimization and
Consolidation (SBOC) Initiative Guidelines, July 2009.
University Station, Eugene, OR                                                EN-AR-11-007
 Consolidation


Community Input

In August 2009, the Postal Service notified the University Station retail and PO box
customers and issued 346 questionnaires concerning the proposed consolidation.
Management also made questionnaires available at the window counter. Community
concerns received included no customer parking lot at the Eugene MPO, having to
travel to another PO for services, and the loss of a gathering place. Also, in
September 2009, the Postal Service received three congressional inquires 4 expressing
concerns that the community did not have the opportunity to comment.

Our review of the discontinuance study documentation found the Postal Service
collected and considered public comments through October 2009. Of the
251 questionnaire replies received, management considered customers’ inputs and
concerns and responded to those who provided a return address. Management also
responded to congressional inquiries and individual letters. Based on available
information and community input obtained during the discontinuance study, the Postal
Service concluded the consolidation would provide effective and regular postal services
and will not adversely affect the community.

As part of our audit, we asked for and received 157 public comments, using an external
blog on the U.S. Postal Service Office of Inspector General (OIG) website, on how the
University Station consolidation affected them (see Table 1).

     Table 1: Number and Type of Comments Received on the OIG’s website from
                          February 17 through March 16, 2011.
    Closing the University Community
         Station was        input was   Customer Reopen the      Right decision to
     inconvenient to the       not      will switch University close the University
    university community considered      brands      Station          Station

               138                    1               5                  12   1

Office Workload and Economic Savings

The discontinuance study also found the University Station revenue and workload
(customer visits and total transactions) continued to decline since fiscal year (FY) 2008
(see Table 2). Also, of the 933 PO boxes available, only 317 (34 percent) were rented,
compared to a national rental rate of 77 percent. Further, the Postal Service leased the
University Station space on a month-to-month basis since April 2010. Finally, the
estimated annual cost savings was about $130,000 for two full-time employees and rent
payments.




4
    Senators Jeff Merkley and Ron Wyden and Congressman Peter DeFazio.

                                                      2
University Station, Eugene, OR                                                                         EN-AR-11-007
 Consolidation


                            Table 2: University Workload and Revenue
                                                                                             Percentage
                                                                                             Compared to
                                                        Actual for FY                        Same Period
                                                                                              Last Year

                                              2008             2009           2010           2009         2010
              Walk-In
                                           $421,826        $379,599        $362,147        (10.0%)       (4.6%)
             Revenue
             Customer
                                             57,224           49,835        46,679         (12.9%)       (6.3%)
               Visits
    Total Transaction (Revenue
                                            $96,344           $86,346       $81,606        (10.4%)       (5.5%)
         and Non-revenue)
Source: Retail Data Mart – Monthly-Yearly Retail Unit Post Office Comp Flash Report

On June 9, 2011, management provided additional information that clarifies the
University Station discontinuance proposal. Management stated that $86,416 in
personnel, contract cleaning, and supplies expenses 5 were not included in the proposal
submitted for final determination. The omission of the expenses was the result of
inadequate coordination between local and district management and the discontinuance
coordinator. Management added that among the Postal Service-operated retail units in
Eugene, OR, closing the University Station would cause the minimum disruption to
customers and employees while providing cost savings.

Service Alternatives

Customers in the University Station area have several options for postal services within
a short distance. The Eugene MPO is located about 1.1 miles from the University
Station, offers extended window hours and passport service, and has an automated
postal center (APC), a self-serve kiosk. In addition, there are three other Postal Service-
owned or leased facilities and three contract postal units (CPUs) 6 located within a 5-mile
radius of the University Station. See Appendix C for services and distances for the
seven facilities. Lastly, while the University of Oregon bookstore is not part of the Postal
Service retail network, it sells stamps and accepts First-Class Mail® and flat-rate boxes.

Final Determination

Our analysis revealed that the discontinuance study to consolidate the University
Station into the Eugene MPO began in July 2009 and public notices were issued the
same month. The discontinuance study was completed and submitted to Postal Service
Headquarters (HQ) for final determination 7 in October 2009. HQ approved the final
5
  Personnel cost, $81,250; contract cleaning, $4,380; and supplies, $786.
6
  A CPU is a facility that provides selected postal services to the public according to a contract with the Postal
Service.
7
  The decision-making process begins with the development of information by district offices, because they have the
knowledge of local conditions and customers. The district is responsible for preparing and submitting all requests to
discontinue stations and branches to HQ. HQ approves or disapproves the proposed discontinuance.

                                                          3
University Station, Eugene, OR                                                                   EN-AR-11-007
 Consolidation


determination to discontinue the University Station operations in August 2010,
13 months after the study began, 8 which exceeded SBOC Initiative guidance by
9 months. The University Station was closed in January 2011. Because we made a
recommendation addressing timely discontinuance study decisions in a prior audit
report, we are not making a similar recommendation. 9 See Appendix D for timeline.

The Postal Service posted on its external website (usps.com) an October 21, 2010,
letter notifying stakeholders of its official decision to discontinue operations at the
University Station. However, we noted the gaining facility was changed from the Eugene
MPO to the Southside Station, 2.4 miles from the University Station. Management
stated that the Postal Service owns the building in which the Eugene MPO resides and
it has been on the market for sale for over a year. Management expressed concerns
that moving operations into a building with a “For Sale” sign might unfairly impair public
perception of the Postal Service. HQ advised local management that the gaining facility
could not be changed after the final determination has been approved. Subsequently,
local management issued an update letter on December 2, 2010, informing customers
the gaining facility will remain at the Eugene MPO. Because management took
corrective actions, we are not making a recommendation.

Recommendation

We recommend the vice president, Delivery and Post Office Operations:

1. Ensure that district managers review and certify that local managers have identified,
   reviewed, and documented all applicable direct and indirect costs in discontinuance
   proposals prior to submission to headquarters for final determination.

Management’s Comments

Management agreed with the findings and recommendation. Management stated district
managers would review and certify discontinuance records before submitting them to
the vice president, Delivery and Post Office Operations, for final determination.
Management added a financial model, which was established to analyze projected
savings and costs. The model will be included in the feasibility study as part of the
discontinuance process, effective July 14, 2011. See Appendix E for management’s
comments, in their entirety.




8
 The SBOC Initiative Guidance states the average discontinuance process period is 4 months.
9
 Stations and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated
August 17, 2010)

                                                       4
University Station, Eugene, OR                                                    EN-AR-11-007
 Consolidation


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation,
and the corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. The recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

Economic Analysis

While the discontinuance process will identify cost savings, the Postal Service should
improve the financial analysis used to determine if a retail facility closes. Currently, the
financial analysis does not:

   Evaluate potential revenue declines that may result from closing a retail facility.

   Address the impact of closing a profitable retail unit.

   Sustain the Postal Service’s competitive advantage.

Potential Revenue Loss

Revenue loss due to closing a facility is not part of the Postal Service’s cost savings
calculation, because management does not have a methodology to estimate lost
revenue. The Postal Service assumes that customers will continue to access postal
products and services through alternative access channel or to another postal facility.
However, our review of the University Station disclosed that the community of about
30,000 students and staff’s willingness to use another postal facility was diminished due
to limited transportation and inconvenient retail hours. In addition, 20 percent (63 of
317) of the University Station PO box customers did not transfer their box service to the
Eugene MPO.

Profitable Unit

By law, the Postal Service cannot close “. . .small post offices solely for operating at a
deficit. . . .” Inherent to the current postal law is the assumption that some offices are
profitable, while others are not. Our review of the University Station discontinuance
study documentation revealed that, from FYs 2008 through 2010, the unit was operating
at a profit each year. We recognize that there may be indirect costs, in addition to the
$130,000 direct costs, not included in the University Station cost savings analysis.
However, the Postal Service’s selection of a facility that operated at a profit for closure
rather than one of the many thousands that consistently operate at a loss is somewhat



                                              5
University Station, Eugene, OR                                                                             EN-AR-11-007
 Consolidation


puzzling and may reduce stakeholders’ confidence that it will make decisions in a
transparent, equitable, and fact-based manner.

Competitive Advantage

The Postal Service must balance revenue considerations with the cost of maintaining
and staffing retail facilities. The current discontinuance process does not examine or
predict the presence of competitors. Without this information, the Postal Service is at
risk of maintaining its competitive advantage. For example, in April 2011, the University
of Oregon Erb Memorial Union announced the United Parcel Service (UPS) Store will
move into the space formerly occupied by the University Station. The UPS Store would
use existing mailboxes that the Postal Service sold to the University. We estimated the
Postal Service is at risk of revenue loss of about $180,000 for the closure of the
University Station (see Appendix B for our other impact calculation).

We recognize that the Postal Service faces barriers 10 in its efforts to optimize and
modernize the retail network. In recent months, the Postal Service has initiated actions
to address some institutional barriers that have inhibited modernization of the retail
network. Specifically, in March 2011, the Postal Service proposed new rules to improve
the closure process, and management is in the process of updating the Postal Service-
Operated Retail Facilities Discontinuance Guide to provide additional guidance.
However, we believe the addition of an economic analysis model will allow a more
objective evaluation. We are not making a recommendation, because we will address
this issue in our comprehensive review of the draft Postal Service-Operated Retail
Facilities Discontinuance Guide, which will examine all components of the
discontinuance process.




10
  In our May 2011 white paper, we reported that the Postal Service faces statutory, regulatory, political, and
institutional barriers in its efforts to optimize and modernize the retail network, Barriers to Retail Network Optimization
(Report Number RARC-WP-11-005, dated June 9, 2011).

                                                             6
University Station, Eugene, OR                                                                         EN-AR-11-007
 Consolidation



                                   Appendix A: Additional Information

Background

The current locations of more than 32,000 Postal Service retail facilities reflect decisions
made over decades to create retail and delivery networks that fulfill the Postal Service’s
statutory obligation to provide customers with ready access to essential postal
services. 11 Also, those decisions were made when alternative access to retail postal
services was not available. Today, about 30 percent of retail revenue is generated
through alternate access channels. Customers can access stamps and postal services
at usps.com, self-serve kiosks, grocery stores, retail outlets, and privately operated
shipper locations. In addition, changes in mail processing technology have reduced the
space needed for carrier operations in retail facilities. Further, the Postal Service
projects mail volumes to steadily decline as business and household mailers turn to
electronic media to transmit correspondence formerly sent through the postal system.

The availability of alternative access for customers combined with shifts in mail volume
to electronic alternatives and the increased use of mail processing technology
throughout operations have made it necessary for the Postal Service to review the
number and location of stations and branches and determine whether excess capacity
exists.

In April 2009, the Postal Service began a national initiative to consolidate retail facilities
by reviewing some of its 3,600 stations and branches that report to postmasters at or
above the Executive & Administrative Schedule 24 12 level. The SBOC Initiative focused
on facilities in urban and suburban areas, because they are in relatively close proximity
to one another where consolidation might be feasible.

Objectives, Scope, and Methodology

Our objectives were to assess the Eugene, OR University Station consolidation and
determine whether the Postal Service discontinuance process were transparent and
included a review of community needs.

      Used computer-processed data from the Retail Data Mart System to analyze
       workload and transactions.

      Interviewed Postal Service officials and reviewed applicable guidelines, including
       Handbook PO-101, Postal Operations Manual, POM Issue 9, SBOC Training
       Guides.

      Reviewed the Eugene, OR University Classified Station discontinuance study,
       including public comments and management’s analysis and responses.

11
     Title 39 U.S.C. § 403(b).
12
     A salary structure that applies to most managerial and administrative Postal Service employees.

                                                            7
University Station, Eugene, OR                                                 EN-AR-11-007
 Consolidation



   Reviewed Government Accountability Office (GAO) reports related to retail network
    optimizations.

   Reviewed the Postal Regulatory Commission (PRC) Advisory Opinion on the SBOC
    Initiative and related documentations.

We conducted this performance audit from January through July 2011 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on May 25, 2011, and included their
comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational system. We did not test the accuracy of the data or the validity of
controls over the system.




                                            8
     University Station, Eugene, OR                                                            EN-AR-11-007
      Consolidation



     Prior Audit Coverage

                                         Final
                           Report
  Report Title                          Report                             Report Results
                           Number
                                         Date
Stations and                                            The Postal Service needs to raise stakeholders’
Branches                                                confidence that it will make decisions in a transparent,
Optimization and         EN-AR-10-005   8/17/2010       equitable, and fact-based manner by integrating a
Consolidation                                           strategic approach (top-down) and establishing clear
Initiative                                              criteria for evaluating discontinuance decisions.
                                                        To achieve financial viability, the Postal Service must
                                                        align its costs with revenue, generate sufficient
U.S. Postal Service
                                                        earnings to finance capital investment, and manage its
- Restructuring
                         GAO-09-958T                    debt. Key restructuring actions the Postal Service could
Urgently Needed to                      8/29/2009
                                                        take include reducing compensation and benefit costs,
Achieve Financial
                                                        consolidating retail and processing networks and field
Viability
                                                        structure, and generating revenue through new or
                                                        enhanced products.
                                                        Although the Postal Service has begun efforts to realign
                                                        and consolidate some mail processing, retail, and
U.S Postal Service -
                                                        delivery operations, much more is urgently needed.
Broad Restructuring
                         GAO-09-790T                    GAO recognizes that Postal Service would face
Needed to Address                       7/30/2009
                                                        formidable resistance to restructuring with many facility
Deteriorating
                                                        closures and consolidations because of concerns that
Finances
                                                        these actions would affect service, employees, and
                                                        communities.
U.S. Postal Service                                     The Postal Service can streamline its retail network by
- Network                                               closing unnecessary facilities and promoting lower-cost
Rightsizing Needed       GAO-09-674T    5/20/2009       alternatives such as purchasing stamps by mail,
to Help Keep USPS                                       telephone, and the Internet, as well as at drug stores
Financially Viable                                      and supermarkets.
U.S. Postal Service                                     The Postal Service needs to close unnecessary retail
- Deteriorating                                         facilities and, by reducing the number of facilities, could
Postal Finances          GAO-09-332T                    lower the cost of maintaining its network of facilities.
                                        1/29/2009
Require Aggressive                                      The network of retail facilities has remained the same
Actions to Reduce                                       despite population shifts and changes in mailing
Costs                                                   behavior.




                                                    9
University Station, Eugene, OR                                                                          EN-AR-11-007
 Consolidation



                                         Appendix B: Other Impact

                Finding                              Impact Category                            Amount
      Potential Revenue Loss                        Revenue at Risk 13                         $180,000

The Postal Service estimates that revenue will continue to decline. Based on the
University Station revenue from FYs 2009 to 2010 and the competitor moving into the
vacated facility, we used a 50-percent reduction in revenue to estimate the potential
revenue loss.




13
  Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).

                                                          10
University Station, Eugene, OR                                                                                          EN-AR-11-007
 Consolidation



                                 Appendix C: Retail Facilities in Eugene, OR




                                            Uni ver si t y St at i on


                                                                                               CPU - Vi l l age
     Ri ver   Road St at i on                                                                  Chevr on G as St at i on




                                                                                                  CPU -   Hi r on #1




                                                       . 5 mi l es
        West si de St at i on




                                                       CPU -          Hi r on #8
                Eugene M PO                                                                    Sout hsi de St at i on




                    Facilities                                       Hours                        Services
                                                                                                 14
                                          8:30 a.m. - 5 p.m. M-F 10                All services, passports, APC, &
                 Eugene MPO
                                          a.m. - 2 p.m. S                          PO Box rentals
              Southside Station           8:30 a.m. - 6 p.m. M-F                   All services, APC & PO Box
                                          10 a.m. - 2 p.m. S                       rentals
              Westside Station            8:30 a.m. - 5 p.m. M-F                   All services, APC & PO Box
                                                                                   rentals
                                          8:30 a.m. - 5 p.m. M-F                   All services, APC & PO Box
              River Road Station
                                          9 a.m. - 1 p.m. S                        rentals
                      CPUs
                    Hirons # 1            9 a.m. - 4:30 p.m. M-F
                                                                                   All retail services
                                          9 a.m. - 12:30 p.m. S
                    Hirons # 8            9 a.m. - 5 p.m. M-F                      All retail services
                                          9 a.m. - 12 p.m. S
                                          9 a.m. - 6 p.m. M-F                      All retail services
     Village Chevron Gas Station
                                          10 a.m. - 4 p.m. S




14
  All services include stamps and products; domestic and international mail; Registered Mail™; insured mail;
Certified Mail™; and return receipts.

                                                                         11
University Station, Eugene, OR                                                                               EN-AR-11-007
 Consolidation


                 Appendix D: University Station Discontinuance Timeline




                                                                       JAN 2011, University Station closed




                                                                                    OCT and DEC 2010, Notices to
                                                                                    public to close


                                                                        AUG 2010 - HQ final determination
                                                                        to consolidate operations




                                    OCT 2009 – Proposal submitted to
                                    HQs

                                                                                        Start to finish
                    AUG – OCT 2009 – Community input
                    and Postal Service response phase                                 Key milestones-documentation must
                                                                                      be completed to move forward
                                                                                       Initial preparation
       JUL 2009 – Discontinuance study began




                                                        12
University Station, Eugene, OR                                 EN-AR-11-007
 Consolidation


                           Appendix E: Management’s Comments




                                          13
